•V-

la

*

APPENDIX A-OPINION OF THE UNITED
STATES COURT OF APPEALS FOR THE
ELEVENTH CIRCUIT, FILED JANUARY 28, 2021

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

No. 19-13788
Oral Argument Calendar (Jan. 12, 2021)
D.C. Docket No. l:17-cv-00125-JRH-BKE

Ramonica Luke
Plaintiff-Appellant,

versus

University Health Services, Inc.,
Defendant-Appellee.
Appeal from the United States District Court
for the Southern District of Georgia

January 28, 2021
Before MARTIN, NEWSOM, and BRANCH, Circuit Judges.
MARTIN, Circuit Judge:
Ramonica Luke, a former employee of University Health Services, Inc.
(“University Health”) sued University Health under Title VII for alleged racial
discrimination after she was terminated. The District Court granted summary
t -

2a
judgment in favor of University Health. After careful consideration, and with the
benefit of oral argument, we affirm.
I.

BACKGROUND1

In May 2006, Ms. Luke, who is African-American, began working as a patient
care assistant for University Hospital. University Hospital is operated by
University Health, which is the party to this appeal. Later in 2006, Ms. Luke
began working in the lab at University Hospital as a phlebotomist/processor during
the night shift. Her hours were from 6:00 PM to 6:30 AM. In that position, she was
responsible for drawing blood, inputting patient demographics, answering phone
calls, and filing paperwork. Ms. Luke was supervised by Vicki Forde.
As time passed, Ms. Luke accumulated a lengthy disciplinary record for
tardiness and attendance problems during her work for University Hospital. She
received verbal counseling in March 2008 due to her violating University Hospital’s
attendance policy. She then received written warnings in August 2008, June 2011,
and January 2014, again for violating the attendance policy. In August 2014, Ms.
Luke got a final written warning for violating the attendance policy, which said “the
next occurrence of not meeting hospital policy could result in termination.” Ms.
Luke received a second and a third final written warning in March 2015 and
September 2016. Between the January 2014 written warning and the September

1 Like the District Court, we rely on University Health’s statement of undisputed material facts from
summary judgment, which Ms. Luke did not contest.

3a
2016 final written warning, Ms. Luke was tardy over 100 times. The September
2016 final written warning said, “This has been a habitual and serious problem and
improvement has not been seen, therefore the next occurrence of a tardy will result
in immediate termination.” All written warnings were issued by Ms. Luke’s
supervisor, Ms. Forde.
Then at 6:11 PM on December 31, 2016, Ms. Forde got an email from Amita
Simmons, who was working the shift prior to Ms. Luke’s. Ms. Simmons wrote, “I
have been here since 4 a.m. AND I am still here, Ramonica is continuously late and
[it’s] not fair to me.” The next day, Ms. Forde received another email from Ms.
Simmons, which said, “I had to stay 15 minutes behind the schedule on the clock
because Ramonica was late.” Prompted by Ms. Simmons’s complaint, Ms. Forde set
out to investigate. Ms. Forde reviewed the time adjustment sheet, which documents
an employee’s hours of work on those occasions when the employee forgets to clock
in. The time adjustment sheet had an entry by Ms. Luke on December 1, 2016
saying that she “forgot to clock in [at] 6pm.” Although Ms. Luke did not write that
the time adjustment sheet was for December 31, 2016, there were a couple of
circumstances that made Ms. Forde believe that Luke meant to make a time
adjustment for December 31 instead of for December 1. First, the time adjustment
sheet is kept in chronological order, and Ms. Luke’s entry followed one made by Ms.
Simmons on December 31, 2016 when Simmons also forgot to clock in. Second, Ms.
Luke worked on DEcember 1, 2016 and clocked in at 5:59 PM, so she would have

4a
had no need to use the time adjustment sheet for that day. Ms. Forde also reviewed
security footage and pulled Ms. Luke’s Badge history from December 31. This
investigation revealed that Ms. Luke arrive in the lab at 6:12 PM, 12 minutes after
her scheduled start time and 12 minutes after the 6:00 PM time Ms. Forde thought
Luke meant to list on the time adjustment sheet for December 31.
After her investigation, Ms. Forde recommended that Ms. Luke be
terminated based on her history of attendance problems and what Forde perceived
as falsification of the time adjustment sheet. Ms. Forde’s recommendation went to
Vita Mason, an employee relations specialist in the human resources department,
for review. Ms. Mason felt she could neither definitively prove nor disprove whether
Ms. Luke falsified the time adjustment sheet, but she approved the
recommendation for termination based solely on Luke’s history of attendance
problems. Ms. Mason then sent the termination recommendation to Chris
Westbrook, vice president of human resources at University Hospital, who provided
final approval for Ms. Luke’s termination. Ms. Luke was terminated on January 11,
2017 based on her history of attendance problems, including 32 documented
instances of being tardy in the preceding year.
Ms. Luke filed a charge with the Equal Employment Opportunity
Commission (“EEOC”), alleging she was discriminated against based on her race.
She said she was “aware of similarly-situated Caucasian co-workers who were not
discharged for committing similar violations.” The EEOC ultimately issued Ms.

5a
Luke a notice of right to sue. In October 2027, Ms. Luke, proceeding pro se, sued
University Health in the Southern District of Georgia, asserting claims under Title
VII for racial discrimination. Both Ms. Luke and University Health moved for
summary judgment, and the District Court granted summary judgment in favor of
University Health. This is Ms. Luke’s pro se appeal.
II.

DISCUSSION

We review de novo a district court’s order granting summary judgment,
“viewing all evidence and drawing all reasonable inferences in favor of the
nonmoving party.” Osorio v. State Farm Bank. F.S.B.. 746 F.3d 1242, 1249
(11th Cir. 2014) (quotation marks omitted). Summary judgment is proper “if
the movement shows that there is no genuine dispute as to any material fact
and the movant is entitled to judgment as a matter of law.” Fed. R. Civ. P
56(a). We construe pro se filings liberally. Jones v. Fla. Parole Comm’n. 787
F.3d 1105, 1107 (11th Cir. 2015).
We begin by setting out the legal framework that guides us. Title VII
makes it unlawful for an employer to “discharge any individual, or otherwise
to discriminate against any individual with respect to his compensation,
terms, conditions, or privileges of employment, because of such individual’s
race.” 42 U.S.C. $ 2000e-2(a)(l). When, as neither party disputes here, a
Title VII claim is based on circumstantial evidence, the three-step burden

6a
shifting framework from McDonnell Douglas Corp. v. Green. 411 U.S. 792, 93
S. Ct. 1817 (1973), applies to determine whether there has been
discrimination. Smelter v. . Home Care Servs. Inc.. 904 F.3d 1276, 1288
(11th Cir. 2018). At the first step of McDonnell Douglas, the employee must
make out a prima facie case of discrimination, which gives rise to a
rebuttable presumption that the termination was discriminatory. Id. Once
the prima facie case is made, the burden shifts to the employer at the second
step, which must provide a “legitimate, nondiscriminatory reason for its
action.” Id. Finally, at the third step, if the employer provides such a reason.
“the presumption raised by the prima facie case is rebutted” and the burden
shifts back to the employee to show that the employer’s proffered reason is a
“pretext for illegal discrimination.” Id. (quotation marks omitted). To show
pretext at this third step, the evidence must show :such weaknesses,
implausibilities, inconsistencies, incoherencies or contradictions in the
employer’s proffered legitimate reasons for its actions that a reasonable
factfinder could find them unworthy of credence.” Furcron v. Mail Ctrs. Plus,
LLC, 843 F.3d 1295, 1313 (11th Circ. 2016) (quotation marks omitted). The
employee survives summary judgment only “if there is sufficient evidence to
demonstrate the existence of a genuine issue of fact as to the truth of each of
the employer’s proffered reasons for its challenged action.” Id (quotations
marks omitted).

7a
Applying the legal framework at summary judgment, the District
Court first assumed Ms. Luke had established her prima facie case. The
District Court then found that University Health provided a legitimate,
non-discriminatory reason for Ms. Luke’s termination, as the “record contains
evidence documenting [Luke’s] attendance issues, multiple warnings, a
coworker complaint, and a termination letter identifying attendance as the
reason.” At the third step, the District Court found that Ms. Luke failed to
meet her burden of showing University Health’s proffered reason was
pretextual. In this Court, Ms. Luke makes five challenges to the District
Court’s summary judgment ruling. We address these issues in turn.2
A. Ms. Luke’s proffered comparators do not show discrimination.
In order to show discrimination, an employee must show that her employer
treated less favorably than similiarly situated employees. Lewis v. City of Union
Citv. 918 F.3d 1213, 1221 (11th Cir. 2019) (en banc). This is because “discrimintion
is a comparative concept—it requires an assessment of whether ‘like’ (or instead
different) people or things are being treated ‘differently.’” LL at 1223. In Lewis, this
circuit recently held that the comparators must be “similarly situated in all
material respects.” Id. at 1226 (quotation marks omitted). Thi means a comparator

2 Ms. Luke also raises three other issues unrelated to the District Court’s summary judgment ruling.
However, Ms. Luke did not first raise these issues in the District Court, so we cannot consider them
on appeal. See Access Now, Inc, v. Sw. Airlines Co.. 385 F.3d 1324, 1331 (11th Cir. 2004) (“[I]ssue[s]
not raised in th district court and raised for the first time in an appeal will not be considered by this
court.” (quotation marks omitted)).

8a
ordinarily will have “engaged in the same basic conduct 9or misconduct) as the
plaintiff,” “been subject to the same employment policy,” :been under the jurisdiction
of the same supervisor,” and “will share the plaintiff’s employment or disciplinary
history.” LL at 1223-24 & n.9.
Ms. Luke argues the District Court erred by failing to consider her eight
comparators: Frances Darnell, Pamela Evans, Jennifer Campbell, Janet Neal, Alice
Mueller, Blake Wojtaszok, Joy Sizemore, and Laura Glossom. According to Ms.
Luke, these people are white, have a history of attendance problems, and worked
under Ms. Forde as a phlebotomist-processor or as a courier at University Hospital.
None of them were terminated for attendance problems. Ms. Luke is correct that
the District Court failed to consider her comparators at the prima facie stage of
McDonnell Douglas. But that’s only because the District Court assumed Ms. Luke
established her prima facie case, si it had no need to evaluate her comparator
evidence at McDonnell Douglas’s first step. To the extent M. Luke argues the
District Court failed to consider her comparators at the pretext stage of McDonnell
Douglas, the record shows otherwise. The District Court found that Ms. Forde did
not suspect the comparators of falsifying their time adjustment sheets and that no
coworker of the comparators complained to Ms. Forde about their tardiness.
Therefore, it found that, in Ms. Forde’s view, Ms. Luke “was in a situation dissimilar
to [her] proffered comparators.”

9a
Indeed the record shows Ms. Luke’s comparators were not similarly situated
to Luke in “all material respects” insofar as the comparators did not share Luke’s
employment or disciplinary history.” See Lewis. 918 F.3d at 1226, 1228 (quotation
marks omitted). Specifically, Ms. Forde never suspected the comparators of
falsifying time and attendance records. We recognize that Ms. Luke was not
ultimately terminated because of her suspected falsification of the time adjustment
sheet, but Ms. Forde’s perception that Luke falsified the time adjustment sheet led
‘ to recommend termination. And Ms. Mason then approved Ms. Forde’s
recommendation because of Ms. Luke’s history of attendance problems. Thus, the
suspected falsification is a material difference between Ms. Luke and her
comparators in that it got the ball rolling towards her termination.3 Beyond that,
no coworker of the comparators complained to Ms. Forde about their tardiness.
This, too, is a material difference between Ms. Luke and her comparators. Ms.
Simmon’s complaint about Ms. Luke tardiness is what led Ms. Forde to investigate.
her tardiness, which ultimately led to the recommendation for termination.
Because M. Luke’s comparator ar not similarly situated in all material respects,
they cannot establish discrimination.
B. The District Court did not improperly consider Angela
Thomason in finding that Ms. Luke failed to show pretext.
3 And even if the suspected falsification of the time adjustment sheet did contribute to Ms. Luke’s
termination, our precedent allows an employer to “fire an employee for a good reason, a bad reason, a
reason based on erroneous facts, or for no reason at all, as long as its action is not for a
discriminatory reason,” Jones v. Bessemer Carrayway Med Ctr., 151 F. 3d 1321, 1324 n. 16 (11th Cir.
1998) (per curiam) (quotation marks omitted)

10a
When discussing the issue of pretext, the District Court noted in passing that
Mr. Westbrook, the vice president of human resources at University Hospital who
made the final decision to terminate Ms. Luke, “treated a Caucasian employee
[Angela Thomason] in the same manner” as Ms. Luke. Ms Luke argues the District
Court erred in considering Ms. Thomason as a comparator because, according to
Luke, Thomason does not have the same employment history as Luke. Ms. Luke
did not first raise this argument in the District Court, so we cannot consider it on
appeal. See Access Now. 385 F. 3d at 1331. But even if we could, Ms. Luke’s
argument is unavailing. As an initial matter, we are not convinced that the
District Court treated Ms. Thomason as a comparator. For instance, the District
Court never addressed whether Ms. Thomason was similarly situated to Ms. Luke.
See Lewis. 918 F.3d at 1226. Instead, it appears the District Court simply referred
to Ms. Thomason in support of its finding that Ms. Luke failed to show the human
resources personnel’s decision to approve Luke’s termination was pretextual.
Nevertheless, even if the District Court did consider Ms. Thomason as a
comparator at the pretext stage, Ms. Luke has not shown that the District Court
erred in doing so. Although Ms. Luke says Ms. Thomason does not have the same
employment history as herself (and is thus not similarly situated), the burden is on
Luke at the pretext stage, and she has not explained how Thomason’s employment
history is different from her own. See Smelter. 904 F. 3D at 1288 (stating that, at
the pretext stage, “the burden shifts back to the employee”).

11a
C. The purported inconsistent reason provided by University
Health for terminating Ms. Luke do not show pretext.
Ms. Luke says the reasons given by University Health for her termination
are inconsistent. She says University Health said she was terminated for being
tardy on December 31, 2016, but she reads a January 25, 2017 letter from Ms.
Mason as saying she was terminated “due to a mispunch (not clocking in).” Ms.
Luke offers this inconsistency to show that University Health’s proffered reason for
termination Luke is a pretext is a pretext for discrimination.
Inconsistencies inconsistencies in or shifting explanations for an employer’s
proffered reason for termination can indeed be evidence of pretext. See Tidwell v.
Carter Prods.. 135 F. 3d 1422, 1422 (11th Cir. 1998); Bechtel Constr. Co. V. Sec’v of
Labor. 50 F.3d 926, 935 (11th Cir. 1995). However, a close view of the evidence in
favor of Ms. Luke uncovers no inconsistency in the reason given for why she was
terminated. The undisputed record shows Ms. Luke was terminated for her history
of attendance problems, and Ms. Mason’s letter expressly says, “Ms. Luke was
terminated for attendance.” While Ms. Luke says University Health alo told her
she was terminated for tardiness, that is completely consistent with terminating
her attendance problems. True, Ms. Mason’s letter notes a “missed punch.” but
that’s mentioned in the context of Ms. Luke’s failure to clock in as “resulting in the
recommendation for termination.” We do not read it to be offered as the actual
reason Ms. Luke was terminated. At most, the purported inconsistency simply
indicates that the reason for recommending termination and the reason for

12a
termination were different. But when there is no inconsistency in the reason for
termination itself, we cannot say that reason was pretextual.
D. Ms. Luke cannot rely on the work rule defense to show pretext.
Ms. Luke’s nest argument relies on what is called the “work rule defense.”
On summary judgment, when an employer’s proffered reason for terminating an
employee is the violation of a work rule, that reason is “arguably pretextual when a
plaintiff submits evidence (1) that she did not violate the cited work rule, or (2) that
if she violate the rule, other employees outside the protected class, who engaged in
similar act, were not similarly treated.” Damon v. Fleming Supermarkets of Fla..
Inc.. 196 F. 3d 1354, 1354, 1363 (11th Cir. 1999). Ms. Luke sys she did not falsify
the time adjustment sheet, so under the first Damon method, University Health’s
proffered reason for her termination is arguably pretextual. However, again here,
Ms. Luke did not first raise this argument in the District Court, so we cannot
consider it on appeal. See Access Now. 385, F. 3d at 1331. But even if we could, Ms.
Luke’s argument cannot carry the day. Specifically, Ms. Luke was not terminated
for falsifying the time adjustment sheet. As set out above, Ms. Mason could not
definitively prove or disprove that Ms. Luke falsified the time adjustment sheet.
Instead, Ms. Mason approved the recommendation for termination based on Ms.
Luke’s history of attendance problems. In other words, even if Ms. Luke put forth
evidence that she didn’t falsify the time adjustment sheet (and she hasn’t), she has
not shown that she “did not violate the cited work rule” for which she was actually

13a
fired—her history of attendance problems. Damon. 196 F.3d at 1363. Therefore, Ms.
Luke cannot use the work rule defense to show pretext.
E. University Health;s purported failure to follow its policies does
not show pretext.
Finally, Ms. Luke says University Health failed to follow its policies, which
shows pretext. An employer’s deviation from its policies can be evidence of pretext.
See Bass v. Bd. of Cnty. Comm’rs, Orange Cnty., Fla., 256 F.3d 1095 1108 (11th Cir.
2001), overruled on other grounds by Crawford v. Carroll, 529 F. 3d 961 (11th Cir.
2008). However, viewing the record in favor of Ms. Luke, we must reject her
assertion. Ms. Luke says University Health didn’t follow its process for
investigating and correcting employee misconduct, but that process is characterized
as “optimal,” not mandatory. Even so, the undisputed evidence show that Ms. Forde
and Ms. Mason investigated the suspected falsification thoroughly before
proceeding with her termination. And while Ms. Luke says University Health
didn’t follow its policy limiting the consideration of tardiness history to the
preceding 12 months, that policy also is not mandatory. And in any event, the
undisputed evidence is that Ms. Luke was terminated for her history of attendance
problems, including 32 documented instances of being tardy in the 12 months
preceding her termination.

14a
III. CONCLUSION
Ms. Luke has not shown “such weakness, implausibilities, inconsistencies,
incoherencies or contradictions in the employer’s proffered legitimate reasons for its
actions that a reasonable factfinder could find them unworthy of credence,”
Furcron. 843 F. 3d at 1313. The District Court therefore properly granted summary
judgment in favor of University Health.
AFFIRMED.

15a
APPENDIX B—ORDER OF THE UNITED
STATES DISTRICT COURT FOR THE SOUTHERN
DISTRICT OF GEORGIA, FILED SEPTEMBER 24, 2019
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF GEORGIA
Case No. l:17-cv-00125-JRH-BKE
Ramonica Luke
Plaintiff,
•Vs.
University Health Services Inc.,
Defendant.
September 24, 2019, Decided
ORDER
Before the Court are Plaintiff and Defendant’s cross motions for summary
judgment.1 (Docs. 54,64) The Clerk of Court gave Plaintiff and Defendant notice of
the respective motions for summary judgment and informed the Parties of the
summary judgment rules, the right to file affidavits or other materials in
opposition, and the consequences of default. (Docs. 55, 65.) Thus, the notice

'

1 Plaintiff also filed a Motion to file Response to Defendant’s Reply Summary Brief. (Doc. 71.) This
Court has an “unlimited reply brief policy.” Linthicum v. Mendakota Ins. Co.. No. CV415-023, 2015
WL 4567106, at *4 n.4 (S.D. Ga. July 28, 2015) A party does not need the Court’s permission to file a
reply brief “within fourteen (14) calendar days of service of the opposing party’s last brief.” See LR
7.6, SDGa. Plaintiff’s motion was filed the same day Defendant filed its reply (Doc. 72); thus,
Plaintiff does not need the Court’s permission. Because the motion includes Plaintiff’s response, the
Court construes it as the requested response and DENIES AS MOOT Plaintiff’s motion to file a
response (Doc. 71).

16a
Appendix B
requirements of Griffith v. Wainwright. 772 F. 2d 822, 825 (11th Cir. 1985) (per
curiam, are satisfied. The time for filing materials in opposition has expired, and
the motions are ripe for consideration.2

I.

Background

Plaintiff Ramonica Luke, African American, began working for University
Hospital in May of 2006 as a Patient Care Assistant. (Pl.’s Dep., Doc. 39, at 28:9-10,
34:15-22) After six months, Plaintiff was moved to the laboratory where she worked
as a Phlebotomist Processor until her termination in January of 2017. (Id. at
28:7-10; 34;15-25) As a Phlebotomist, Plaintiffs responsibilities included drawing
blood, processing in the lab, inputting patient demographics, answering phone calls,
and filing paperwork. (Id. at 37:5-14) Plaintiff worked the night shift from 6:00
p.m. until 6:30 a.m. (Id. at 37:16-38:13.)
A. Work History
Plaintiffs EEOC case and current case state she was discriminated against
when terminated. (EEOC Charge of Discrimination, Doc. 39, Ex. 13,3 at 203.)
Plaintiff was recommended for termination for her alleged attendance issues and

2 In her motion for summary judgment and response to Defendant’s motion for summary judgment,
Plaintiff fails to cite to evidence in the record as required by Local Rule 7.1. Furthermore, Plaintiff
failed to include a statement of undisputed material facts in her motion and failed to respond to
Defendant’s statement of undisputed material facts as required by Local Rule 56.1. Thus, all
material facts offered by Defendant in its statement of material facts are deemed admitted.
Although the Court need not consider statements in her motion or briefs absent citations to evidence,
the Court considers Plaintiff’s arguments as best it can.
3 Document Number 39 includes Plaintiff's Deposition and all exhibits. The exhibits were not filed as
attachments to the deposition, so the Court cites the PDF number.

17a
falsifying records. (Recommendation for Termination for PL, Doc. 56-6.) The
ultimate termination was approved for attendance issues alone. (Jan. 25, 2017
Letter from Ms. Mason, Doc. 59-3) The Court focuses on facts relating to the
recommendation and ultimate termination.
On May 23, 2008, Vicki Forde, a Laboratory Manager who is Cauasian,
verbally counseled Plaintiff concerning her tardiness and absences. (See Aug. 26,
2008 Written Warning, Doc. 39, Ex. 7, at 185; Def.’s St. of Mat. Facts., Doc. 64-2,
par. 11) Having “clocked in late sixteen times and. . . called in once since (May 23,
2008).” Ms. Forde issued Plaintiff a written warning for violation of the attendance
policy on August 26, 2008. (Aug. 26, 2008 Written Warning, at 185-86.)
On June 29, 2011, Ms. Forde issued Plaintiff another written warning for
violating the attendance policy, which stated, “The next occurrence of any violation
of policy . . . will result in a final written warning up to termination if deemed
necessary.” (June 29, 2011 Written Warning, Doc. 39, Ex. 1, at 161-62.) Ms. Forde
documented six call-ins from Plaintiff within the twelve-month period preceding the
June 29, 2011 warning: “7/3/10 - Saturday, 9/24/11 - Friday, 10/23.11 - Saturday,
1/30/11 - Sunday, 3/26/11 - Saturday, 5/20/11 - Friday (scheduled to be here at 9am
and did not call until 9am).” (Id. at 161.) On the warning, Plaintiff rebutted that
the reason for her May 20, 2011 violation was a child care issue that she “didn’t
have any control over.” (Id. at 162.) Regardless, Plaintiff does not dispute that she
called into work that day. At the time, Plaintiff made no challenge to the

18a
correctness of any other listed day. In this case, however, Plaintiff states that Ms.
Forde incorrectly noted that she called in on September 24, 2011, and October 23,
2011. (Pl.’s Resp. to Def.’s Mot. for Summ. J., Doc. 68, at 8.) Plaintiff states that
these dates are months after the written warning and she worked both days. (IdJ
Ms. Forde responds that writing 2011 instead of 2010 may have been a
typographical error. (See Forde’s Dep., Doc. 56, at 23:18-20) Furthermore, the day
of the week listed after each date aligns with that day in 2010, not 2011.
On January 8, 2014, Ms. Forde issued Plaintiff another written warning for
“repeated incidents of not clocking in or out when arriving or leaving work . . . [and]
repeated problems with tardies and arriving to work in a timely manner.” (Jan. 8,
2014 Written Warning, Doc. 39, Ex. -8, at 187.) The January 8, 2014 warning stated,
“If two additional tardies occur, you will receive a final written warning. Failure to
clock in or out again will incur a final written warning.” (Id.)
From January 8, 2014, to August 28, 2014, Plaintiff incurred at least forty
tardies. (See Pl.’s Time Detail from 2008 to 2017, Doc. 39, Ex. 19, at 282-87.) On
August 28, 2014, Ms. Forde issued Plaintiff a final written warning for Plaintiff’s
“four call’ins and numerous tardies.” (Aug. 28, 2014 Final Written Warning, Doc.
39, Ex. 9, at 189) The warning stated, “The next occurrences of not meeting
hospital policy could result in termination.” (Id. at 190.) In rebuttal, Plaintiff
offered an excuse that on July 9, 2014, she “had no one to get [her] son off the bus”
and she already worked her forty hours for the week. (Id.)

19a
On March 12, 2015, Ms. Forde issued Plaintiff a second final written
warning. (Mar. 12, 2015 Final Written Warning, Doc. 39, Ex. 11, at 194-95.)
Between the August 28, 2014 final written warning and the second final written
warning, Plaintiff was tardy at least thirty times. (See Pi’s Time Detail from 2008
to 2017, at 287-91.) In the March 12, 2015 final written warning, Ms. Forde stated,
“This has been a habitual and serious problem and improvement has not been a
habitual and serious problem and improvement has not been seen, therefore the
next occurrence of a tardy will result in immediate termination.” (Mar. 12, 2015
Final Written Warning, at 194.)
On September 9, 2016, Ms. Forde issued to Plaintiff the third final written
warning, which, again, stated that “the next occurrence of a tardy will result in
immediate termination.” (Sept. 9, 2016 Final Written Warning, Doc 39, Ex. 12 at
196-97.) Within the twelve months preceding the September 9, 2016 warning,
Plaintiff was tardy over thirty-five times. (See Pl.’s Time Detail from 2008 to 2017,
at 294-302.)
On December 31, 2016, Plaintiff was late for work. At 6:11 p.m., Plaintiff’s
coworker, Amita Simmons, emailed Ms. Forde complaining that she had to stay
because Plaintiff had not arrived for her 6:00 p.m. shift. (See DEc. 31, 2016 Email
from Ms. Simmons, Doc. 39, Ex. 21, at 308.) Ms. Forde reviewed Plaintiffs badge
history and security footage; both showed she arrived at the lab at 6:12 p.m. on

20a
December 31, 2016. (See Pl.’s Badge History Report, Doc. 39, Ex. 20 at 307; Forde’s
Decl., Doc. 64-4, par, 10.)
Plaintiff also failed to clock in on December 31, 2016. When an employee
fails to clock in, she must request a time card adjustment by filling out the “Time
CArd Adjustment Sheet,” which includes a place for the employee’s name, date, and
problem resulting in the needed adjustment. (See Time Card Adjustment Sheet,
Doc. 39, Ex. 18, at 246.) The Time CArd Adjustment sheet is filled out in
chronological order. (Forde’s Decl., par. 6.)
The Time Card Adjustment Sheet at issue contains two entries. Line one:
“Amita Simmons, 12/31/16, Forgot to clock in at 4:00 a.m..” (Time Card Adjustment
Sheet, at 246.) Line two: “R Luke, 12/1/16, forgot to clock in @ 6pm.” (Id.) Ms.
Forde knew Plaintiff was late on December 31, 2016, given Ms. Simmons’s email,
the security footage, and Plaintiff’s badge history.
When reviewing the time records for employees for the week of December 31,
2016, Ms. Forde remembered that plaintiff had been late on December 31, 2016.
(Forde’s Decl., par. 5.) Ms. Forde believed that the date written by Plaintiff on the
Time Card Adjustment sheet was a misprint and Plaintiff actually meant to sign it
for December 31, 2016, rather than December 1, 2016. (Id. par. 8, 9.) Consequently,
M. Forde believed Plaintiff falsified her time record by requesting a clock-in
adjustment for December 31, 2016, of 6:00 p.m. when she did not arrive until 6:12
p.m. (Id. par. 11.)

21a
B. Termination
Ms. Forde recommended plaintiff for termination because Plaintiff was tardy
on December 31, 2016, after her third final written warning, and Ms. Forde believed
Plaintiff falsified her attendance record. (Id.; Recommendation for Termination for
PI.) Christa Pardue, the Laboratory Director who is Cauasian, received notice of
the termination from Ms. Forde. Then, the Recommendation for Termination was
sent to Vita Mason, an Employee Relations Specialist in the Human Resources
(“HR”) Department who is African American. (Jan. 9-11, 2017 Email Exchange,
Doc. 56-7; Wesbrook’s Decl., Doc. 64-5, par. 5.)
Upon receipt of the termination, Ms. Mason reviewed Plaintiff’s employment
file. (Mason’s Dep., Doc. 58, 11:15-19.) Ms. Mason examined the claims made by
Ms. Forde and found that she could not definitively prove nor disprove that Plaintiff
had falsified her time records. (Mason’s Dep., at 19:2-20:5) (“[I]t wasn’t proven but
it wasn’t disproven either.”).) Regardless, Ms. Mason found that Plaintiff was tardy
on December 31, 2016, in violation of her September 6, 2016 warning, which
provided that the next violation would result in immediate termination. (See Jan.
25, 2017 Letter from Ms. Mason.) Plaintiff does not challenge that she was tardy on
December 31, 2016; only that she did not falsify her records. Plaintiff was also
tardy on January 7, 2016, while Ms. Mason was investigating her recommended
termination. (See Pl.’s Time Detail from 2008 to 2017, at 303.)

22a
Ms. Mason submitted the Recommendation for Termination based on
attendance issues to Chris Westbrook, the Vice President of HR at University
Hospital who is Caucasian, for his final approval. (Westbrook’s Decl., par. 1; Jan.
9-11, 2017 Email Exchange, Doc. 56-7: see also Mason’s Dep., at 11:19-25.) Mr.
Westbrook approved the termination. (Jan. 9-11, 2017 Email Exchange.) On
January 11, 2017, Plaintiff received a phone call from Ms. Mason, Ms. Forde, and
Ms. Pardue explaining that she was terminated. (Pl.’s Am. Br. Supp. Mot. for Su,,.
J., Doc. 54-2 at 2.)
C. Plaintiffs EEOC Charges
On February 24, 2017, Plaintiff submitted an Intake Questionnaire to the
U.S. Equal Employment Opportunity Commission (“EEOC”). (EEOC Intake
Questionnaire, Doc. 39, Ex. 15, at 224-31.) In the Intake Questionnaire, Plaintiff
states that Ms. Forde and Ms. Pardue discriminated against her by terminating her
because of her race. (Id. at 225.) On May 11, 2017, Plaintiff filed a Charge of
Discrimination with the EEOC alleging the following:
I began employment with the above-named employer on or about May 7,
2006, and I was last employed as a Lab Processor. On or about January 11,
2007,1 was discharged. I am aware of similarly-situated Caucasian
co-workers who were not discharged for committing similar violations.
The reason given for my discharge was attendance violations.
I believe that I was discriminated against due to my race, African-American,
in violation of Title VII of the Civil Rights Act of 1964, as amended.

(EEOC Charge of Discrimination, at 203.) Plaintiff states that on July 24, 2017, the
EEOC issued her a Notice of Right to Sue. (Comp., Doc. 1, at 6.) On October 9,

23a
2018, Plaintiff moved for summary judgment. October 30 2018, Defendant moved
for the same. For the following reasons, the Court finds no issues of material fact
and summary judgment for Defendant proper.
II. SUMMARY JUDGMENT STANDARD
Summary judgment is appropriate only if “there is no genuine dispute as to
any material fact and the movant is entitled to judgment as a matter of law.” FED.
R. CIV. P. 56 (a). Facts are “material” if they could “affect the outcome of the suit
under the governing [substantive] law, “Anderson v. Liberty Lobby, Inc., 477 U.S.
242, 248 (1986), and a dispute is genuine “if the non[-]moving party has produced
evidence such that a reasonable factfinder could return a verdict in its favor.”
Waddell v. Valley Forge Dental Assocs., Inc., 276 F. 3d 1275, 1279 (11th Cir. 2001).
The Court must view facts in the light most favorable to the non-moving party,
Matsushita Elec. Indus. Co. v, Zenith adio Corp., 475 U.S. 574, 587 (1986), and must
“draw all justifiable inferences in [the non-moving party’s] favor.” United States v.
Four Parcels of REal Prop., 941 F.2d 1428, 1437, (11th Cir. 1991) (en banc) (citation,
internal quotation marks, and internal punctuation omitted). The Court should not
weigh the evidence or determine credibility. Anderson, 477 U.S. at 255.
The moving party has the initial burden of showing the Court, by reference to
materials in the record, the basis for the motion. Celotex Corp. v. Catrett, 477 U.S.
317, 323, (1986) Because the standard for summary judgment mirrors that of a
directed verdict, the initial burden of proof required by either party depends on who

24a
carries the burden of proof required by either party depends on who carries the
burden of proof required by either party depends on who carries the burden of proof
at trial. Id. at 322-43. When the movant does not carry the burden of proof at trial,
it may carry the initial burden in one of two ways--by negating an essential element
of the non-movant’s case or by showing that there is no evidence to prove a fact
necessary to the non-movant’s case. See Clark v. Coats & Clark, Inc., 929 F.2d 604,
606-08 (11th Cir.1991) (citing Adicks v. S.H. Kress & Co., 398 U.S. 144 (1970);
CElotex Corp., 477 U.S. 317). The movant cannot meet its initial burden by merely
declaring that the non-moving party cannot meet its burden at trial. Id. at 608.
If—and only if - the movant carries its initial burden, the non-movant must
“demonstrate that there is indeed a material issue of fact that precludes summary
judgment.” Id. When the non-movant bears the burden of proof at trial, the
non-movant must tailor its response to the method by which the movement carries
its initial burden. For example, if the movant presents evidence negating a
material fact, the non-movant “must respond with evidence sufficient to withstand a
directed verdict motion at trial on the material fact sought to be negated.”
Fitzpatrick v. City of Atlanta, 2 F.3d 1112, 1116 (11th Cir. 1993). On the other hand,
if the movant shows an absence of evidence on a material fact, the non-movant must
either show that the record contains evidence that was “overlooked or ignored” by
the movant or “come forward with additional evidence sufficient to withstand a
directed verdict motion at trial based on the alleged evidentiary deficiency.” Id. at

25a
1116-17. The non-movant cannot carry its burden by relying on the pleadings or by
repeating conclusory allegations contained in the complaint. See Morris V. Ross,
663 F.2d 1032, 1033-34 (11th Cir. 1981). Rather, the non-movant must respond with
affidavits or as otherwise provided by Federal Rule of Civil Procedure 56. The
Court has evaluated the Parties’ briefs, other submissions, and the evidentiary
record in this case. For the reasons set forth herein, Defendant’s motion for
summary judgment is GRANTED, and Plaintiff’s motion for summary judgment is
DENIED.
III. DISCUSSION
Plaintiff’s complaint alleges she was discriminated against because of her
race under Title VII of the Civil Rights Act of 1964, 42 U.S.C. $$ 2000e, et seq. Both
Parties move for summary judgment. Even in the light most favorable to Plaintiff,
the Court finds there are insufficient facts in the record for a reasonable juror to
find Defendant terminated Plaintiff because of her race. Accordingly, the Court
finds summary judgment for Defendant proper.
A plaintiff may establish a discrimination claim under Title VII using direct
or circumstantial evidence. Schoenfeld v. Babbitt, 168 F.3d 1257, 1266 (11th Cir.
1999). “Direct evidence of discrimination is evidence, that, ‘if believed, proves the
existence of a fact in issues without inferences or presumption.”’ Id. (quoting
Burrell v. Bd of Trs. of Ga Military Coll., 125 F.3d 1390, 1393 (11th Cir. 1997)). “
‘Only the most blatant remarks, whose intent could be nothing other than to

26a
discriminate’ on the basis of some impermissible factor” qualify as direct evidence.
Id. (quoting Carter v. City of Miami, 870 F.2d 578, 582 (11th Cir. 1989)).
Here, Plaintiff does not argue that Ms. Forde or any other employees of
Defendant made blatant discriminatory remarks that would constitute direct
evidence. On its own review, the Court finds nor direct evidence. Thus, Plaintiff’s
case relies solely on circumstantial evidence.
When a plaintiff relies solely on circumstantial evidence to support her claim,
courts employ the burden shifting framework set forth in McDonnell Douglas Corp.
v. Green, 411 U.S. 792, 802-04 (1973). Under the McDonnell Douglas framework,
plaintiff must first establish a prima facie case of the Title VII violation. St. Mary’s
Honor Ctr. v. Hicks, 509 U.S. 502, 506 (1993). “The burden of proving a prima facie
case is not onerous.” Watson v. Fort Worth Bank & Tr., 487 U.S. 977, 986 (1998)
(citation and internal quotation marks omitted). Success in establishing a prima
facie case creates a rebuttable presumption that the employer acted illegally.
McDonnell Douglas, 411 U.S. at 802. “The burden then must shift to the employer
to articulate some legitimate, nondiscriminatory reason for the [termination].” Id.
The employer’s burden is an “exceeding light” one of production, not persuasion,
which means the employer “need only produce evidence that could allow a rational
fact finder to conclude that [the plaintiff’s] discharge was not made for a
discriminatory purpose.” Standard v. A.B.E.L. Servs., Inc. 161 F.3d 1318, 1331
(11th Cir. 1998); Meeks v. Comput. Associates. Int’l, 15 F.3d 1013, 1019 (11th Cir.

27a
1884). If the employer meets this burden, the burden shifts back to the plaintiff
who can only avoid summary judgment by presenting “significantly probative”
evidence that the proffered reasons are pretextual. Young v. Gen. Foods Corp., 840
F.2d 825, 829 (11th Cir. 1998) (citation omitted).
A. Prima Facie Case
Title VII establishes that “[i]t shall be an unlawful employment practice for
an employer - (1) ... to discharge any individual. . . because of such individual’s
race.” 42 U.S.C. & 2000-2(a) (1). For the purposes of this Order, the Court assumes
Plaintiff has established her prima facie case. The burden now shifts to Defendant
to show a legitimate, nondiscriminatory reason for terminating Plaintiff.
B. Legitimate, Nondiscriminatory Reason
Defendant states it terminated Plaintiff:
Because she violated Defendant’s attendance policy when she failed to show
up to work at her scheduled time and when she failed to clock in according to
the policy. Plaintiff not only had a long history of failure to follow the
attendance policy, but she was put on notice of the consequences if she
continued to violate the policy.

(Def,’s Br. Supp. Mot. for Summ. J., Doc. 64-1, at 13.) “To satisfy this intermediate
burden, the employer need only produce admissible evidence which would allow the
trier of fact rationally to conclude that the employment decision had not been
motivated by discriminatory animus.” Combs v. Plantation Patterns, 106 F. 3d
1519, 1528 (11th Cir. 1997) (emphasis omitted) (quoting Tex. Dep’t Of Cmty. Affairs
v. Burdine, 450 U.S. 248, 257 (1981)).

28a
Defendant satisfies its burden of production. The record contains evidence
documenting Plaintiff’s attendance issues, multiple warnings, a coworker
complaint, and a termination letter identifying attendance as the reason. This
satisfies Defendant’s burden of production. As such, the burden shifts back to
Plaintiff to establish the proffered reason was pretextual.
C. Pretext
To survive summary judgment, Plaintiff carries the burden to show
Defendant’s proffered reason was pretextual. Plaintiff fails to meet this burden.
The burden requires “sufficient evidence to demonstrate the existence of a genuine
issue of fact as to the truth of each of the employer’s proffered reasons for the
challenged action” by demonstrating “such weakness, implausibilities,
inconsistencies, incoherencies, or contradictions in the employer’s proffered
legitimate reasons for its action that a reasonable factfinder could find them
unworthy of credence.” Cooper v. S. Co.. 390 F.3d 695, 725-26 (11th Cir. 2004)
(citation omitted), overruled, in part, on other grounds, Ash v. Tyson Foods, Inc., 546
U,S. 454 (2006); Combs, 106 F.3d at 1538. “A plaintiff is not allowed to recast an
employer’s proffered nondiscriminatory reasons or substitute [his] business
judgment for that of the employer.” Alvarez v. Royal Atl. Developers, Inc., 610 F. 3d
1253, 1265 (11th Cir, 2010) (quoting Chapman v. AI Transp., 229 F. 3d 1012, 1030
(11th Cir. 2000) (en banc)). If the employer satisfies the intermediate burden, “an
employee must meet that reason head on and rebut it, and [he] he cannot succeed

29a
by simply quarreling with the wisdom of that reason.” Id. at 1266 (quoting
Chapman, 229 F. 3d at 1030). “When an employer asserts misconduct by n
employee as the legitimate reason for its action, the pretext inquiry focuses on the
employer’s belief and whether the employer was dissatisfied with the employee for
nondiscriminatory reasons, ‘even if mistakenly or unfairly so.’ “ Siddiqui v. NetJets
Aviation, Inc., 773 F. App’x 562, 564 (11th Cir. 2019) (per curiam) (quoting Alvarez,
610 F. 3d at 1266) (citing Elrod v. Sears, Roebuck & Co., 939 F.2d 1466, 1470 (11th
Cir. 1991)).
Turning to the facts at hand, Defendant offers evidence that Ms. Forde
recommended Plaintiff for termination as a direct result of the following events: (1)
Amita Simmons sent Ms, Forde an email complaining of Plaintiff’s tardiness, (2)
that instance of tardiness was after Plaintiff received the September 9, 2016
warning declaring that “the next occurrence of a tardy will result in immediate
termination,” and (3) Ms. Forde suspected Plaintiff of falsifying her attendance
record. The Court construes proffering three main arguments: (1) Defendant was
inconsistent in the reasons given for terminating plaintiff, (2) Plaintiff has
comparators who were not terminated, and (3) Plaintiff was discriminated against
in ways other than her termination. Plaintiff does not differentiate her arguments
supporting the prima facie and pretext prongs of the McDonnell Douglas analysis.
1. Inconsistency in Reason for Termination

30a
Plaintiff states, “On January 25, 2017, [Ms.] Mason wrote an unemployment
response letter to the Georgia Department Labor fabricating a different story about
the incident surrounding [Plaintiff’s] termination.” (Pl.’s Resp. to Def.’s Mot. for
Summ. J., at 2; see Jan. 25, 2017 Letter from Ms. Mason.) Plaintiff, however, has
not shown how this reveals Defendant’s legitimate reason for terminating Plaintiff
was pretext for discriminiation based on her race.
The Court provides a recap of the undisputed, relevant facts. On January 6,
2017, Ms. Forde recommended Plaintiff’s termination based on Plaintiff’s
attendance record, a coworker complaint, and a belief that she falsified her time
card. On January 11, 2017, Plaintiff was terminated. The January 25, 2017 Letter
from this Ms. Mason stated that “[Plaintiff] was terminated for attendance.”
Plaintiff is correct that part of Ms. Forde’s reason for recommending
Plaintiff’s termination was falsification of her time card, yet the ultimate decision to
terminate Plaintiff did not include falsification as a reason. Plaintiff, however, has
not shown that this difference proves Ms. Fordes, Ms. Pardue, Ms. Mason, or Mr.
Westbrook terminated Plaintiff based on her race.
As an initial matter, “contradicting the [defendant’s] asserted reason alone,
though doing so is highly suggestive of pretext, no longer supports an inference of
unlawful discrimination.” Flowers v. Troup Cty., Ga. Sch. Dist., 803 F. 3d 1327,
1339, (11th Cir. 2015). Here, however, Plaintiff has not contradicted Defendant’s
asserted reason nor offered evidence, apart from the proffered comparators as

31a
discussed below, that supports an inference that the real reason was racial
discrimination. See Siddiqui, 773 F. App’x at 565.
The Court addresses each potential decision maker in turn. As discussed
below, Plaintiff does not show that Ms. Forde’s reason for recommending Plaintiff
for termination was pretext for discrimination. Plaintiff has also failed to offer
evidence of how Ms. Pardue discriminated against Plaintiff. The ultimate decision
to terminate Plaintiff came from the HR Department, specifically Ms. Mason and
Mr. Westbrook (collectively, “HR Personnel”). Thus, the Court focuses on whether
th HR Personnel’s decision to terminate Plaintiff only for her attendance issues
shows pretext for discrimination.4
First, Ms. Mason is the same race as Plaintiff, African American. This,
however, is not dispositive. See Castaneda v. Partida, 430 U.S. 482, 499 (1977)
(“Because of the many facets of human motivation, it would be unwise to presume
as a matter of law that human beings of one definable group will not discriminate
against other members of their group.”); see also Moore v. Shands Jacksonville
Med. Ctr., Inc., No. 3:09-cv-298-J-34TEM, 2013 WL 12178164, at *10 n.23 (M.D.
Fla. Oct. 18, 2013). Regardless, the evidence shows no pretext for discrimination
based on Ms. Mason’s decision that termination was proper. Ms. Mason reviewed
the evidence that was in the files. Ms. Mason examined the claims made by Ms.
Forde and found that she could not definitively prove nor disprove that Plaintiff
4 To the extent PLaintiff argues that the HR Personnel’s finding that they could not prove
falsification shows that Plaintiff did not falsify her time records, the Court addresses that argument
below. See infra Section III (C ) (2) (a).

32a
falsified her time records. Regardless, Ms. Mason found that Plaintiff was tardy on
December 31, 2016, in violation of her September 6, 2016 warning. Plaintiff does
not challenge her tardiness on December 31, 2016. Ms. Mason believed termination
proper even absent conclusive proof that Plaintiff falsified her time records.
Second, Mr. Westbrook only examined the information Ms. Mason provided
him. (See Stipulation of Fact, Doc. 62. Par. 1; see also Mason’s Dep., at 11:15-25,
22:25-23:3.) That information showed Plaintiff violated the September 6, 2016
warning. Plaintiff did not depose Mr. Westbrook, and Plaintiff makes no argument
and offers no evidence that Ms. Westbrook decided to terminate. Plaintiff based on
her race. Rather, the evidence shows Mr. Westbrook relied on what was presented
to him by Ms. Pardue. Cf. Siddiqui, 773 F. App’s at 566.
f

Plaintiff's argument that some of the absences should have been excused5
does not change the fact that when looking at her records, the HR Personnel saw a
history of attendance issues including that Plaintiff violated her September 9, 2016
final written warning. The HR Personnel were not in a position to determine
whether the absences should have been marked excused. (See Mason’s Dep., at 15:
25-16:5 (“The decision was based on the information that I pulled when we
came-when we went through the employment file, looked at the history of

5 Plaintiff’s argument that specific absences on their own should have been excused does not show
evidence of racial discrimination. Siddiqui, 773 F. App’x at 564. Plaintiff’s arguments, however, that
she was treated differently than comparators outside her protected class when her absences were not
excused, say be sufficient to show pretext. The Court examines those arguments in Section III (C )
(3), infra.

33a
[Plaintiffs] attendance, and looked at what was going on from there. That’s what
we based it on, what’s actually in your file.”).)
2. Proffered Comparators Who Were Not Terminated
Having failed to differentiate, the Court assumes Plaintiffs argument that
similarly situated individuals were not terminated applies to her case for pretex.
For the following reasons, Plaintiff use of comparator evidence to show Defendant’s
legitimate reason was pretext for racial discrimination is inadequate for Plaintiff to
survive summary judgment.
A recent Eleventh Circuit decision sheds light on when a
comparator-evidence analysis is properly analyzed within the McDonnell Douglas
framework. In Lewis v. City Union City, the Eleventh Circuit held that a
comparator-evidence analysis is correctly analyzed within the first step of the
McDonnell Douglas framework - the prima facie stage. 918 F. 3d 1213, 1223-24
(11th Cir. 2019) (en banc). Of course, Lewis does not foreclose precedent permitting
the evaluation of evidence presented at the prima facie stage on the issue of pretext.
Reeves v. Sanderson Plumbing Probs., Inc., 530 U.S.. 133, 143 (2000) (internal
citations and quotation marks omitted) (“[Although the presumption of
discrimination drops out of the picture once the defendant meets its burden of
production, . . . the trier of fact may still consider the evidence establishing th
plaintiff’s prima facie case and inferences properly drawn therefrom on the issue of
whether defendant’s explanation is pretestual.”). But a plaintiff is not permitted to

34a
rest on his prima facie case laurels at the pretext stage. The Eleventh Circuit
requires something more:
At one time under this Circuits’s law, [a plaintiff] could have gotten his
claims before a jury after making a prima facie case and merely contradicting
the defendant’s proffered
legitimate,
nondiscriminatory reason. . . .
.intervening precedent has since closed this avenue for Title VII plaintiffs. . . .
The burden place on Title VII plaintiffs to produce additional evidence
suggesting discrimination after contradicting their employer’s stated reasons
is not great, but neither is it nothing.

Flowers, 803 F.3d at 1339 (emphasis added) (citations omitted).
In sum, comparator evidence is properly considered at the prima facie stage,
and prima facie evidence may be considered at the pretext stage, but evidence
sufficient to make out prima facie case alone is insufficient to survive summary
judgment. Therefore, at a minimum, at the pretext stage, a plaintiff must forth
evidence the employer the employer subjectively believed the comparators in
question were similarly situated and treated them differently. ‘Treating different
cases differently is not discriminatory, let alone intentionally so. See Nix v. WLCY
Radio/Rahall Commc’ns, 738 F. 2d 1181, 1186 (11th Cir. 1984) (“If an employer
apples a rule differently to people it believes are differently situated, no
discriminatory intent has been shown.’).” Lewis, 918 F.3d at 1222-23 (emphasis
expanded). This reasoning aligns with traditional pretextual analysis. A plaintiff’s
burden at this stage is to put forth sufficient evidence that a factfinder could find
the defendant’s non-discriminatory reason “unworthy of credence.” Alvarez, 610 F.
3d at 1265 (citation omitted). Therefore, just as a plaintiff, to survive summary

35a
judgment, must show the defendant’s nondiscriminatory reason is not entitled to
credence, when relying on comparator evidence, the plaintiff’s must show the
defendant’s belief that individuals are dissimilarly situated is unworthy of credence.
Here, Plaintiff must offer evidence to show either; (a) Ms. Forde
recommended Plaintiff for termination despite believing Plaintiff was similarly
situated to other individuals whom she did not recommend for termination or (b)
HR Personnel approved Plaintiff’s recommendation for termination despite denying
such a recommendation for individuals they believed were similarly situated.
a. Ms. Forde
Defendant offers evidence that Ms. Forde recommended Plaintiff for
termination after she violated her final written warning by being tardy, a coworker
complained of her tardiness, and Ms. Forde believed Plaintiff falsified her time
record. Defendant shows Ms. Forde ‘had no reason to suspect [Plaintiff’s offered
comparators] of falsifying their Time Adjustment Sheets or otherwise being
dishonest with their time and attendance records.” (Def.’s Br. Supp. Mot. For
Summ. J., at 11; Def.’s St. of Mat. Fact, par. 108.) Furthermore, no coworker of any
proffered comparator ever emailed Ms. Forde to complain about the tardiness of
those employees. (Def.’s Br. Supp. Mot. for Summ. J., at 12; Def.’s St. of Mat. Fact,
par. 109.) Thus, Defendant has shown that, in Ms. Forde’s subjective opinion,
Plaintiff was in a situation dissimilar to Plaintiff’s proffered comparators. It was

36a
not discriminatory for Ms. Forde to treat Plaintiff differently because she believed
the situation different.
Plaintiff offers no evidence that Ms. Forde subjectively believed any other
employee was in a situation similar to Plaintiff when she recommended her
termination. Instead, Plaintiff argues she did not falsify her time sheet. Even if
she did not, “the inquiry into pretext centers on the employer’s beliefs. Not the
employer’s beliefs and, to be blunt about it, not on reality as it exists outside of the
decisionmaker’s head.” Feise v. N. Broward Hosp. Dist., 683 F. App’x 746, 753 (11th
Cir. 2017) (per curiam) (quoting Alvarez. 610 F.3d at 1266); see also Champ v.
Calhoun Cty. Emergency Mgmt. Agency, 226 F. App’x 908, 916 (11th Cir. 2007) (per
curiam) (internal citation omitted) (“Honest reliance on inaccurate information is
not discriminatory. . . . Thus, it is insufficient to merely dispute whether an incident
occurred without presenting evidence that the decision-maker’s belief that those
incidents occurred was unworthy of credence.”). Thus, Plaintiff’s argument that she
did not falsify her timesheet misses the mark. Plaintiff falsified her time records
was not genuinely held; thus, Ms. Forde’s decision to recommend Plaintiff for
termination cannot be said to be pretext for race discrimination. See Flowers, 803
F. 3d at 1341 (“On-the-ground determinations of the severity of different types of
workplace misconduct and how best to deal with them are exactly the sort of
judgments about which we defer to employers.”).
b. HR Personnel

37a
Not only does Plaintiff fail to offer evidence on the HR Personnel’s subjective
belief, but also fails to offer evidence that the HR Personnel ever denied a
recommendation for termination based on attendance issues. Thus, Plaintiff fails to
show the HR Personnel’s decision to approve Plaintiff’s recommendation for
termination was pretext for racial discriminaton.
In addition, Defendant offers evidence that Chris Westbrook treated a
Caucasian employee in the same manner as Plaintiff. Specifically, Defendant offers
evidence that Ms. Forde recommended Angela Thomason, a Causasian employee,
for termination based on her repeated attendance issues. (Recommendation of
Termination for Ms. Thomason, Doc. 64-4 Ex. A, at 4-15; Forde’s DEcl. par. 13.)
Then, Ms. Thomason’s termination was approved. (Stipulation of Fact, par. 2.) At
that time, Mr. Westbrook “was the [HR] Director and was responsible for approving
the recommendations for termination.” (Id.) Although “Defendant’s records do not
reflect who approved [Ms.] Thomason’s termination,’ Defendant stipulates that
there is no reason to doubt that Mr. Westbrook approved the termination. (Id. par.
1, 3-4.)
3. Discriminated Against in Wavs Other Than Her Termination
In Plaintiff’s response to Defendant’s Motion for Summary Judgment, she
lists “other situations when Plaintiff was discriminated against by [Ms.] Forde.”
(pl.’s Resp. to Def,’s Mot. for Summ. J., at 7.) The acts Plaintiff lists are not discrete

38a
acts of discrimination;6 still, they may be used “as background evidence in support
of [the] timely claim” of discrimination. Natl R.R. Passenger Corp. v. Morgan, 536
u.S. 101, 113 (2002). The Court notes that it is not reviewing the employer’s
decision as a super-personnel committee” to determine whether the employer’s
actions were fair. Chapman, 229 F. 3d at 1030. Instead, the Court’s role is to
determine whether there is a question of fact as to whether Defendant
discriminated against Plaintiff because of her race. See Feise, 683 F. App’x at
753-54 (quoting Elrod, 939 F.2d at 1470) (“Absent evidence of discrimination . .

♦

>

our employment discrimination statutes do not interfere with an employer’s ability
to manage it personnel, ‘no matter how medieval a firm’s practives, no matter how
high handed its decisional process, no matter how mistaken the firm’s managers.’ “).
As an initial matter, Plaintiff fails to offer any evidence in support of some of
her factual claims. Although the Court chose not to ignore Plaintiff’s supported
arguments because she failed to cite to evidence in the record,7 the court will not
accept Plaintiff’s argument made in brief without more than a mere scintilla of
evidence in the record. See FED. R. Civ P. 56(e) (“If a party fails to properly support
an assertion of fact. . ., the court may: ... (2) consider the fact undisputed for
purposes of the motion; [or] (3) grant summary if the motion and supporting
materials-including the facts considered undisputed - show that the movant is
•

6 Discrete acts of discrimination include “termination, failure to promote, denial of transfer, or
refusal'to hire.” ledbetter v. Goodyear Tire & Rubber Co., 421 F.3d 1169, 1179 911th Vir. 2005)
(internal quotation marks omitted). Each act “constitutes a separate actionable unlawful
employment practice,” which “starts a new clock for filing charges alleging that act.” Id.
7 See supra note 2.

39a
entitled to it. . .

Goodman v. imbrough, 718 F. 3d 1325, 1332 (11th Cir. 2013)

(stating that “to defeat a motion for summary judgment, [the plaintiff] must adduce
specific evidence from which a jury could reasonably find in his favor; [t] he mere
existence of a scintilla of evidence in support of her position will be insufficient.”).
The following fractal claims made in Plaintiff’s response to Defendant’s motion for
summary judgment are unsupported in the record: (1) In August of 2009, Plaintiff
was not approved to receive tuition of 2009, Plaintiff was not approved to receive
tuition reimbursement;8 (2) Ms. Forde passed Plaintiff over for two administrative
job opportunities in 2014;9 and (3) Ms. Forde did not turn in Plaintiff’s name to
receive a ten-year appreciation award in June of 2016. (See Pl.’s Resp. to Def.’s Mot.
for Summ. sJ., at 9-11.) Thus, the Court need not examine whether these
unsupported facts support Plaintiff’s overall claim of discrimination.
The remaining “other ways” Plaintiff claims she was discriminated against
are : (a) In July of 2009, Vicki Forde failed to excuse Plaintiff’s absence because of
her grandmother’s death; (b) On May 20, 2011, Ms. Forde failed to excuse Plaintiff’s
absence occasioned by her son’s day care flooding; ( c) Ms. Forde incorrectly
documented two of Plaintiff’s six tardies on her June 29, 2011 warning; (d) Ms.

8 Plaintiff, in her deposition, stated she applied for but was denied tuition reimbursement. (Pl.’s
Dep., at 130:5-12.) To show the denial was discriminatory, Plaintiff writes, in her brief, Jennifer
Campbell, a Caucasian employee, applied for and received tuition reimbursement. However in her
deposition, when asked whether Ms. Campbell received the tuition reimbursement -- which is the
only record mention of this event -- Plaintiff responded, “I have no idea,” (Id. at 130: 24-131:2.)
9 When deposed, Plaintiff agreed that in her response to Defendant’s interrogatories, she stated she
applied for two jobs that were both given to less qualified Cauasian females with no laboratory
experience. (Pl.’s Dep., at 128:17-129:19.) Plaintiff, however, provided nothing more to the Court
than the names of the females -- one of which she only provided the first name.

40a
Forde did not excuse any of Plaintiffs absences but Jennifer Campbell was given
days off to care for a sick dog; and (e) Before Ms. Forde recommended Plaintiff for
termination, Plaintiff was not placed on administrative leave, allowed to file a
grievance, or provided an investigation. (Pl.’s Respi. to Def.’s Mot. for Summ. J., at
2-3, 7-9.) DEspite these factual claims’ limited support in the record, the Court will
address each in turn.
a. Absence Because of Grandmother’s Death
According to Plaintiff, Ms. Forde did not excuse Plaintiff’s absence because of
her grandmother’s death. Ms. Forde, however, followed the bereavement policy,
which allows employees to take excused time off for the death of only immediate
family members. (See Mason’s Dep., at 4:23-5:6.) Grandparents are not immediate
family members. (Id. at 5:4-6; see B-04 Bereavement Leave Policy, Doc. 54-2, at 25
(“Immediate family is defined as spouse, child, sibling, parent or legal guardian.”).)
To show racial discrimination, Plaintiff must show tht, despite Ms. Forde following
the policy, her actions were nevertheless discriminatory. Plaintiff may show this by
offering evidence that Ms. Forde treated comparable employees differently. Plaintiff
states that Laura Glossom, a Caucasian employee, was provided bereavement time
when her father-in-law died. (Pl.’s Resp. to Def.’s Mot. for Summ. J., at 9.) Plaintiff,
however, fails to introduce evidence supporting this statement.10

10 Plaintiff states, “According to Laura Glossom’s time records, she was approved for bereavement
leave for three days in December of 2016 follow [sic] the death of her father-in-law.” (Pl,’s Rssp. to
Def.’s Mot. for summ. J., at 9.) In reviewing Laura Glossom’s time records (Dec. 56-21), the Court is
unable to verify Plaintiff’s claim.

41a
b. May 20, 2011 Call In
On May 20, 2011, Plaintiff states she called in but a Caucasian coworker,
Janet Neal, told Ms. Forde Plaintiff was a “no call, no show.” thereby Plaintiff “was
falsely accused by Janet Neal.” (Id. at 7.) Even if this incident raised an issue fact
as to discrimination, it is discrimination by a coworker, and whether a coworker has
discriminatory intent is irrelevant. See Oliver v. TECO Energy, Inc., No.
8:12-cv-2117-T-33TBM, 2013 WL 6836421, at *10 (M.D. Fla. Dec. 26, 2013)
(coworkers could have been “lying through their teeth” when reporting misconduct,
but that is no evidence that the decision maker’s reason for terminating the
Plaintiff was pretextual was pretextual (quoting Elrod, 939 F. 2d at 1470)).
c. June 19, 2011 Warning
Plaintiff argues that in her June 29, 2011 warning, Ms. Forde incorrectly
documented her as calling in on September 24, 2011, and October 23, 2011. As
discussed in Section I, supra, Defendant states that this was a typographical error
by Ms. Forde; the correct year was 2010, not 2011. Regardless, Plaintiff has not
shown how adding two call-in dates to the warning raises an inference that Ms.
Forde discriminated against specifically because of her race.
d.

Comparison with Jennifer Campbell
Plaintiff states that Ms. Forde never excused any of Plaintiff’s absences, but

she once did for Jennifer Campbell, a Cauasian employee, to care for her sick dog.
(Pl.’s Resp. to Def.’s Mot. for Summ. J., at 9; Pl.’s Dep., at 78:18-19. ) Plaintiff offers

42a
no support in the record for this contention, and the Court finds no evidence in the
record to support that Ms. Campbell was provided an excused absence to care for
her sick dog.
e. Administrative Leave
Plaintiff states she was not placed on administrative leave, investigated, or
given the opportunity to file a grievance before termination. (Pl.’s Resp. to Def.’s
Mot. for Summ. J., at 2-3.) The progresive performance management policy
Plaintiff cites allows for “discharge without progressive performance actions.” i.e.
“immediate discharge” when there is a violation of [University Hospital] Policies or
the Standards of Behavior during the twelve months following a ‘final written
warning.

Here, Plaintiff violated her third final written warning and was

immediately discharged in accordance with University Hospital’s policy.
Plaintiff attempts to compare her treatment to that of Laura Glossman who,
according to Plaintiff, was “placed on administrative leave, her allegations were
properly investigated, and she was given the opportunity to file a grievance.” (Pl.’s
Resp. to Def.’s Mot. for Summ. J., at 3) Plaintiff offers no evidence that Laura
Glossom received a final written warning stating that another violation would
result in immediate termination. At any rate, Plaintiff offers no evidence that
Laura Glossom was placed on administrative leave or, if so, why she was placed on
administrative leave is optional and, within Plaintiff’s department, reserved for
situations when patient safety is a concern. (Pardue’s Dep., Doc. 59, at 18;7-17;

43a
A-25 Progressive Performance Management Policy, Doc. 54-2, at 29 (“While
incidents of serious misconduct are under review by management, it may be
appropriate for the supervisor to place the employee in question on administrative
leave pending a final determination regarding a specific incident.”).) In addition,
those who are immediately terminated are unable to file grievances, although it
seems that Plaintiff was able to file grievances in the past if she so desired.1 (See
Def’s St. of Mat. Facts, par. 61; A-25 Progressive Performance Management Policy,
at 29 (The grievance mechanism “is available to employees seeking further review
of actions (other than terminations) under this policy.”).) Lastly, Ms Mason did
investigate Ms. Forde’s Recommendation for Termination, and it is unclear what
further investigation Plaintiff complains of not receiving. Even if Defendant’s
actions violated hospital policy, Plaintiff has offered no evidence to raise an
inference that her race was the reason.

44a
IV. CONCLUSION
For the foregoing reasons, Defendant’s Motion for Summary Judgment (Doc.
64) is GRANTED, and Plaintiff’s Motion for summary Judgment (Doc. 54) is
DENIED. Accordingly, the Clerk is directed to ENTER JUDGMENT in favor of
Defendant on all of Plaintiff’s claims, TERMINATE all other pending motions, if
any, and CLOSE this case.
ORDER ENTERED at Augusta, Georgia, this 24th day of September, 2019.

/s/ J. Randall Hall
J. RANDALL HALL, CHIEF JUDGE
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF GEORGIAww3qqqqqqqqqjikji

